NO. _____________
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
__________
PETE RUSSELL,
Petitioner
v.
BOBBY LUMPKIN,
Director of Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent
__________
PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

CAPITAL CASE

QUESTION PRESENTED FOR REVIEW

Did the Court of Appeals err in denying a certificate of appealabilty,
through a merits review, of Russell’s claim that he received ineffective
assistance of counsel at the punishment stage of trial with respect to
future dangerousness?

1

LIST OF ALL PARTIES
Pete Russell, a/k/a
Pete Russell, Jr.. No. 999443,
Texas Dept. of Criminal Justice,
Correctional Institutions Division

Petitioner, Defendant at Trial
and Applicant in State Habeas
Proceedings

Bobby Lumpkin
Director of Texas Department of Criminal
Justice, Correctional Institutions Division

Respondent

LIST OF RELATED PROCEEDINGS
1.

262nd District Court, Harris County, Texas
No. 898795 State of Texas v. Pete Russell, Jr.
Judgment entered: February 17, 2003

2

Court of Criminal Appeals of Texas
No. AP-74,595, Pete Russell v. State of Texas
Judgment entered: February 2, 2005

3.

262rd District Court, Harris County, Texas
No. 898795-A, Ex parte Pete Russell, Jr.
Findings of Fact and Conclusions of Law entered: May 9, 2013

4.

Court of Criminal Appeals of Texas
No. WR-78,128-01, Ex parte Pete Russell
Judgment entered: November 27, 2013

5.

|Court of Criminal Appeals of Texas
No. WR-78,128-02, Ex parte Pete Russell, Jr.
Order of Dismissal entered: March 8, 2017

6.

United States District Court for the Southern District of Texas,
Houston Division
No. 4:13-cv-03636, Pete Russell v. Lorie Davis
Judgment entered: July 23, 2019

2

7.

United States Court of Appeals for the Fifth Circuit
No. 19-70015, Pete Russell v. Bobby Lumpkin
Judgment Entered: September 4, 2020

3

TABLE OF CONTENTS
Page
Questions Presented

1

List of All Parties

2

List of Related Proceedings

2

Table of Cited Authorities

6

Citations of Opinions and Orders

8

Basis for Jurisdiction

9

Constitutional Provisions and Statutes Involved

10

Statement of the Case

12

A.

Factual Background

12

B.

Procedures Raising Federal Questions to be Reviewed

14

Reasons for Granting the Writ

17

A.

The Future Dangerousness Issue

18

B.

The Evidentiary Role of Experts and Science

21

C.

The Ineffective Assistance of Counsel on the
Future Dangerousness Issue

24

D.

(1)

First Prong of Strickland

25

(2)

Second Prong of Strickland

33

Failure to Apply Correct COA Standard

35

4

Conclusion

40

Appendix
Exhibit 1

United States Court of Appeals’ Opinion,
September 4, 2020

Exhibit 2

United States District Court Memorandum and Order
Denying Petition for a Writ of Habeas Corpus

Exhibit 3

Court of Criminal Appeals Order Denying Relief,
November 27, 2013

Exhibit 4

State’s Proposed Findings of Fact, Conclusions of Law,
and Order, Adopted by District Court Judge, Entered May
9, 2013

Exhibit 5

Court of Criminal Appeals’ Order Dismissing Second Writ
Application, March 8, 2017

Exhibit 6

Excerpt Regarding Future Dangerousness,
Application for Writ, Filed October 7, 2004

Exhibit 7

Excerpt Regarding Future Dangerousness, Report by Mark
Cunningham, Ph.D, Attached to Application for Writ

Exhibit 8

Excerpt, Punishment Argument at Trial of State v. Russell,
February 17, 2003

5

TABLE OF CITED AUTHORITIES
Cases

Page

Addington v. Texas, 441 U.S. 418, 429 (1979)
Barefoot v. Estelle, 463 U.S. 880 (1983)

24, 32
23-24, 32

Bell v. Burson, 402 U.S. 535 (1971)

35

Buck v. Davis, __ U.S. __, 137 S.Ct, 759, 197 L.Ed.2d 1 (2017)

37-39

Cotton v. Cockrell, 343 F.3d 746 (5th Cir. 2003)

33

Ex parte Duffy, 607 S.W.2d 507 (Tex. Crim. App. 1980)

26

Geesa v. State, 820 S.W.2d 154 (Tex. Crim. App. 1991)

20

Jurek v. Texas, 428 U.S. 262 (1976)

23

Miller-El v. Cockrell, 37 U.S. 322 (2003)

35, 37

Paulson v. State, 28 S.W.3d 570 (2000)

20

Penry v. Lynaugh, 492 U.S. 302 (1989)

19

Powell v. Alabama, 287 U.S. 45 (1932)

26

Rhines v. Weber, 544 U.S. 269 (2005)

15

Russell v. State, 155 S.W.3d 176 (Tex. Crim. App. 2005)

14

Slack v. McDaniel, 529 U.S. 473 (2000)

35

Stanley v. Illinois, 405 U.S. 645 (1972)

35

Strickland v. Washington, 46 U.S. 668 (1984)

6

24-25, 33

Wiggins v. Smith, 539 U.S. 510 (2003)

27

Williams v. Taylor, 529 U.S. 362 (2000)

26-27

Woodson v. North Carolina, 428 U.S. 280 (1976)

17, 32

Constitutional Provisions
U.S. CONST. amend. VI

10, 25

U.S. CONST. amend. VIII

10, 17

U.S. CONST. amend. XIV

10, 35

Statutes and Rules
18 U.S.C. §1254(1)

9

28 U.S.C. §2244

15

28 U.S.C. §2254(d)

10, 34

SUP. CT. R. 10

17

TEX. CODE CRIM. PROC. Art. 11.071, §5

15

TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1)

11, 14, 18

TEX. CODE CRIM. PROC. Art. 37.071, §2( c)

11

TEX. CODE CRIM. PROC. Art. 37.071, §2(d)

11, 18

TEX. CODE CRIM. PROC. Art. 37.071, §2(e)(1)

11, 14

TEX. CODE CRIM. PROC. Art. 37.071, §2(g)
TEX. PENAL CODE §19.03(a)(2)

12
10, 18

7

TEX. R. EVID. 401

32

CITATIONS OF OPINIONS AND ORDERS
1.

The opinion of the Court of Criminal Appeals on direct appeal is
published as Russell v. State,155 S.W.3d 176 (Tex. Crim. App. 2005).

2.

The order of the Court of Criminal Appeals denying postconviction
relief appears on that court’s web site as Ex parte Russell (Tex. Crim.
App. No. WR-78,128-01, November 27, 2013).

3.

The order of the Court of Criminal Appeals dismissing Russell’s second
state habeas application appears on the Court’s web site as Ex parte
Russell (Tex. Crim. App. No. WR-78,128-02, March 8, 2017.

4.

The memorandum and order of the United States District Court appears
as Russell v.Davis and was that court’s No. 4:13- cv-03636. It was not
designated for publication.

5.

The opinion of the Fifth Circuit Court of Appeals, denying a certificate
of appealabilty, was in that court’s No. 19-70015. It was not designated
for publication and has not yet appeared in the Federal Appendix.

8

TO THE SUPREME COURT OF THE UNITED STATES;
Comes now the Petitioner, Pete Russell (“Russell”), through the undersigned
attorney appointed under the Criminal Justice Act, 18 U.S.C. §3006A(d)(6), and
respectfully requests that this Court grant the writ of certiorari in order to review the
decision of a panel of the United States Fifth Circuit Court of Appeals (the “Fifth
Circuit”) to deny a certificate of appealability (“COA”). In support of this petition,
Russell submits the following arguments and authorities.
STATEMENT OF JURISDICTION
1.

Russell seeks to have this Court review a judgment of a panel of the Fifth

Circuit, which was entered on September 4, 2020. The Circuit panel’s decision is set
forth in the Appendix Exhibit 1.
2.

This Court entered a general order on March 19, 2020 which extended

the time for filing a petition for writ of certiorari under SUP. CT. R. 13.3 until 150
days after the entry of a judgment by a court of appeals. That places the filing
deadline for this cause on February 1, 2021.
3.

Jurisdiction is conferred upon this Court to review the Court of Appeals’

judgment by 18 U.S.C. §1254(1).

9

CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED
1.

U.S. CONST. amend. VI states:

In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have compulsory process for obtaining witnesses in his favor; and to
have the Assistance of Counsel for his defence.
Russell relies in particular on the counsel clause.
2.

U.S. CONST. amend. VIII states:

Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishment inflicted.
Russell relies in particular on the punishment clause.
3.

U.S. CONST. amend XIV, §1 states:

All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
Russell relies in particular on the due process clause.
4.

28 U.S.C. §2254(d) states:

An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
10

with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim –
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
5.

TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1) states:

On conclusion of the presentation of the evidence, the court shall submit
the following issues to the jury:
(1) whether there is a probability that the defendant would commit
criminal acts of violence that would constitute a continuing threat to
society; ... 1
6.

TEX. CODE CRIM. PROC. Art. 37.071, §2© states:

The state must prove each issue submitted under Subsection (b) of this
article beyond a reasonable doubt, and the jury shall return a special
verdict of “yes” or “no” on each issue submitted under Subsection (b)
of this Article.
7.

TEX. CODE CRIM. PROC. Art. 37.071. §2(d) provides:

The court shall charge the jury that:
(1) in deliberating on the issues submitted under Subsection (b) of this
article, it shall consider all evidence admitted at the guilt or innocence
stage and the punishment stage, including evidence of the defendant’s
background or character or the circumstances of the offense that
militates for or mitigates against the imposition of the death penalty;
1

Subsection 2(b)(2) concerns the law of parties and was not at issue here.
11

(2) it may not answer any issue submitted under Subsection (b) of this
article “yes” unless it agrees unanimously and it may not answer any
issue “no” unless 10 or more jurors agree; and
(3) members of the jury need not agree on what particular evidence
supports a negative answer to any issue submitted under Subsection (b)
of this article.
8.

TEX. CODE CRIM. PROC. Art. 37.071, §2(g) provides:

If the jury returns a negative finding on any issue submitted under
Subsection (b) or an affirmative finding on an issue submitted under
Subsection (e)(1) or is unable to answer any issue submitted under
Subsection (b) or (e), the court shall sentence the defendant to
confinement in the Texas Department of Criminal Justice for life
imprisonment without parole (emphasis added).
STATEMENT OF THE CASE
A. Factual Background
An indictment accusing Russell of Capital Murder, as proscribed by TEX.
PENAL CODE §19.03(a)(2), was filed as Cause Number 898795 in the 262nd
District Court of Harris County, Texas.

It was specifically alleged that Russell

caused the death of Tanjala Brewer by stabbing her with a knife while Russell was
in the course of committing Retaliation. Because Russell was indigent, two
experienced attorneys, Floyd Freed and Ronald Hayes, were appointed to represent
Russell at trial. A jury found Russell guilty of Capital Murder, then gave answers to
two special issues which required the trial court judge to assess the death penalty.
The trial evidence is well described in the United States District Court’s
12

Memorandum and Order (Appendix Exhibit. 2) and in the Court of Appeals’ opinion
(Appendix Exhibit 1).2 The evidence showed that Russell had a romantic relationship
with Tanjala Brewer.

Russell was a local cocaine dealer, while Brewer was a

regular user of cocaine. In 2001 Brewer provided information about Russell to the
Houston Police, who arranged to make an undercover buy of cocaine from Russell.
Russell’s arrest led to his guilty plea for delivery of cocaine, and a plea bargain
produced a ten-year sentence, but the sentencing was set back for a few days at
Russell’s request.
Russell went to Brewer’s house on the evening of August 13, 2001. He
testified that he wanted to keep his romantic relationship going with Brewer, which
is something any man facing just a few years in prison might want. Brewer was only
interested in getting some cocaine that night, and they quarreled. According to
Russell’s later admission to a Houston Police officer, Russell was annoyed that
Brewer had “set him up,” but that was not why he originally decided to go to see
Brewer. Russell and Brewer both became angry and Brewer tried to stab Russell, but
instead Russell picked up a knife and killed her.3
2

Citations herein are to the Appendix, with exhibit numbers, or to pages in the appellate
record in the Fifth Circuit Court of Appeals, using the shorthand form which shows page
numbers without repeating the cause number in every citation.
3

Russell has continually maintained that he was guilty of Murder, under TEX. PENAL
CODE §19.02, but not guilty of Capital Murder. He has pursued that contention through the
lower federal courts. That issue of state law was not a strong candidate for review by this Court.
13

At the punishment stage of trial, additional offenses which had been committed
by Russell were shown. Family members and friends gave testimony about the
difficulties Russell faced during his life, starting with his childhood. There was no
expert testimony to help place this anecdotal evidence into the context of the special
issues. The jury answered a special issue submitted under TEX. CODE CRIM. PROC.
Art. 37.071,§2(b)(1), concerning future dangerousness, affirmatively. The jury
answered a special issue submitted under TEX. CODE CRIM. PROC. Art. 37.071,
§2(e)(1), concerning mitigation, negatively. Those answers required that the death
penalty be assessed. TEX. CODE CRIM. PROC. Art. 37.071, §2(g).
B. Procedures Raising Federal Questions to be Reviewed
Russell’s appeal to the Court of Criminal Appeals was automatic. The four
issues on direct appeal did not included claims of ineffective assistance of counsel.
The judgment and sentence were affirmed in Russell v. State, 155 S.W.3d 176 (Tex.
Crim. App. 2005).
While the direct appeal was still pending, attorneys were appointed to prepare
and file a writ application under TEX. CODE CRIM. PROC. Art. 11.071. They filed
an application in the state district court in 2004 which included the ineffective
assistance claim presented here (Appendix Exhibit 6).
In 2013 an appellate prosecutor prepared proposed findings of fact and

14

conclusions of law. Russell’s state application had presented separate ineffectiveness
claims as to each of the punishment special issues, but the prosecutors’s proposed
findings of fact and conclusions merged them into a general discussion. The state
habeas judge adopted and signed those findings of fact and conclusions of law on
May 72013 (ROA.5538-5560; Appendix Exhibit 3, last page). The Court of Criminal
Appeals denied relief in a two-page order entered on November 27, 2013 (Appendix
Exhibit 4). Without elaboration, the Court of Criminal Appeals’ order stated that the
findings and conclusions were “supported by the record.”
Russell then sought relief under 28 U.S.C. §2254 in the United States District
Court for the Southern District of Texas, Houston Division. Russell filed a skeletal
pleading in order to prevent a bar under 28 U.S.C. §2244. It included both of the
claims made in the state habeas court about ineffective assistance at the punishment
stage. Russell filed a full petition on in 2015.
Some of the issues Russell raised at that time had not been exhausted in the
Texas state courts, so Russell filed a motion for stay and abatement under Rhines v.
Weber, 544 U.S. 269 (2005). The United States District Court judge granted the
Rhines motion. Russell filed a second application in the Court of Criminal Appeals,
which was dismissed under TEX. CODE CRIM. PROC. Art. 11.071,§5 as not
meeting the Texas requirements for a second or subsequent state habeas application

15

(Appendix Exhibit 5). Because the Texas statute requires initial review of a second
or subsequent application by the Court of Criminal Appeals, there was no evidentiary
hearing in the Texas trial court.4
When the federal litigation resumed, the respondent filed a motion for summary
judgment and Russell replied. Russell also requested an evidentiary hearing at which
Dr. Mark Cunningham, a clinical psychologist, who could have testified about the
report he prepared for state habeas counsel.. On July 23, 2019, without having
granted a live evidentiary hearing, the United States district court issued a
memorandum

and

order,

denying

Russell’s

requested

relief

on

all

claims(ROA.444-488; App, Exh. 2). The jjudge also denied a COA .
Russell timely appealed, seeking a COA in the Fifth Circuit Court of Appeals
(ROA.496). A Circuit panel denied a COA (Appendix Exhibit 1).

4

In a second or subsequent application in Texas, the application is not evaluated by the
trial court judge before the application is sent to the Court of Criminal Appeals. Instead the
higher court must grant leave to file the application before the trial court can examine the issues.
16

REASONS FOR GRANTING THE WRIT OF CERTIORARI
Did the Court of Appeals err in denying a certificate of appealabilty,
through a merits review, of Russell’s claim that he received
ineffective assistance of counsel at the punishment stage of trial with
respect to future dangerousness?
Russell contends that his court-appointed trial attorneys, Floyd Freed and
Ronald Hayes, did not provide effective assistance of counsel at the punishment stage
of trial, specifically with respect to the first of the two special issues submitted at the
punishment stage of trial. This is a complex topic, but all this Court really needs to
decide at this time is whether a panel of the United States Court of Appeals for the
Fifth Circuit correctly applied the procedures for a COA.
This is not just a request for a simple application of well-settled law, for which
a writ of certiorari is unlikely. See SUP. CT. R. 10. Russell emphasizes the
paramount importance of the first special issue submitted under Texas law,
concerning what is commonly called “future dangerousness.” The procedural preeminence of this issue over the mitigation issue has not received much attention from
this Court, when compared to the special issue on mitigation, but the future
dangerousness special issue plays a key role in providing heightened reliability in
death-penalty cases, as required under U.S. CONST. amend. VIII. See Woodson v.

17

North Carolina, 428 U.S. 280, 305 (1976). Russell’s ultimate goal is a new trial on
punishment.
A. The Future Dangerousness Issue
Texas law governing the trial of a Capital Murder case is structured to erect
three procedural barriers to assessment of the death penalty. First, the types of
offense for which the death penalty is available is limited to those set forth in Section
19.03 of the Texas Penal Code. Russell’s case falls within Section 19.03(a)(2). The
prosecution overcomes that barrier by obtaining a guilty verdict for Capital Murder.
Second, at the punishment stage of trial, the jury is required to answer a special
issue submitted in the trial court’s instructions. Under TEX. CODE CRIM PROC.
Art. 37.071, §2(b)(1), Russell’s jury was required to answer either “Yes” or “No” to
the question “whether there is a probability that the defendant would commit criminal
acts of violence that would constitute a continuing threat to society.” This Texas
special issue, and others like it in other jurisdictions, came to be known as a “future
dangerousness” issue, although now neither “future” nor “danger” is in the Texas
statutory language. Under TEX. CODE CRIM. PROC. Art. 37.071(d) and the
instructions in Russell’s trial, the special issue could not be answered “Yes” unless
the jurors unanimously agree to that answer. A negative answer can be given if ten
jurors vote that way, and there is no requirement that those ten agree as to what

18

evidence supports the negative answer. Id.
The third barrier is the jury’s obligation to address mitigation. This issue in
Texas law has been revised over time to comply with Penry v. Lynaugh, 492 U.S. 302
(1989) . Russell’s jury was required to answer “yes” or “no” on that issue, and the
verdict went against Russell. A jury does not reach that special issue, however,
unless it has first given a “yes” answer to the “future dangerousness” special issue.
TEX. CODE CRIM. PROC. Art. 37.071, §2(e)(1).
For Russell to prevail, he would not even have to win ten jurors’ votes on
future dangerousness, as TEX. CODE CRIM. PROC. Art. 37.071, §2(g) mandates a
life sentence if “the jury returns a negative finding on any issue submitted under
Subsection (b) or an affirmative finding on an issue submitted under Subsection (e)(1)
or is unable to answer any issue submitted under Subsection (b) or (e)” (emphasis
added). Graphically, the possibilities are as follows:
Number of jurors having a Life sentence Authority in
0some reasonable doubt on
required?
Art. 37.071
future dangerousness
__________ ___________

Proceed to special
issue on mitigation
under Sec, 2(e)?

0

No

Sec. 2(e)

Yes

1-9

Yes

Sec. 2(g)

No

10-12

Yes

Sect. 2(d)(2)

No

Thus the special issue on future dangerousness is the more important one, even

19

though it has garnered less attention over time. Unless the prosecutor achieves a
clean sweep of the jurors, the defendant absolutely cannot receive the death penalty,
and the defendant does not even have to face the risk of receiving a negative answer
on the mitigation special issue.
Winning on the future dangerousness issue also may be inherently easier than
winning on the mitigation issue, for two reasons. First, the highest burden of proof
in law is assigned to the State on the first special issue. In contrast, the jury is not
instructed on a burden of proof as to mitigation. In practice, jurors pondering the
mitigation question will weigh and compare the evidence from both sides without the
benefit of having a standard dictated by the trial judge. Thus the State’s de facto
burden of proof on mitigation may only be a preponderance of the evidence, or
perhaps the slightly stronger “clear and convincing evidence” standard. It is better
by far to be fighting from behind the strong shield of reasonable doubt.
Second, defense counsel has the edge over the State during jury argument on
the first special issue because defense counsel can emphasize the State’s burden of
proof. Texas juries always are reminded of the State’s burden in jury instructions..5

5

For a period of time juries were given a definition of reasonable doubt. That
commenced with Geesa v. State, 820 S.W.2d 154 (Tex. Crim. App. 1991), but Geesa was
overuled in Paulson v. State, 28 S.W.3d 570 (Tex. Crim. App. 2000). With or without a formal
definition, jurors are well aware that the State has the highest burden of proof in the law.
20

In arguments to the jury, the reasonable doubt concept lends itself particularly well
to defense a defense which presents scientific information, for at least some jurors
will assign greater weight to scientific research and the opinions of experts than they
will to anectdotal evidence from a friend or relative of a defendant.
An elemental principle of strategy , whether in warfare or in litigation, is to
choose the point of attack which is most advantageous. In the procedural framework
for Capital Murder trials in Texas, the most advantageous point of attack is the first
special issue, not the second. Any attorney who does not make a stand on future
dangerousness is leaving his client’s life up to a gamble on mitigation.
B. The Evidentiary Role of Experts and Science
Soon after the revival in the 1970's of the death penalty in Texas, prosecutors
recognized the persuasive power of providing scientific evidence, through expert
witnesses, to make a prediction as to the probability that the defendant on trial would
continue to pose a risk of violence, even in the guarded setting of a Texas prison.
One psychiatrist, James Grigson, gave that kind of expert testimony in so many Texas
death-penalty cases that he came to be known as “Dr. Death.” Grigson’s success
before juries led to legal challenges arising from interviews of defendants without
proper safeguards in several cases, but there was no denying that the expert
testimony worked for prosecutors at the trial level.

21

Over time defense lawyers came to realize that it also could work for the
defense. A cadre of experts, knowledgeable about germane scientific studies, arose
to challenge the assumption that a man who committed murder and other violent
crimes in the past inevitably necessarily would be a danger to society in the future.
Prominent among those experts was a Ph.D psychologist, Dr. Mark Cunningham.
Russell’s state habeas attorneys secured the services of Cunningham, who prepared
a massive report covering both future dangerousness and mitigation. The portion of
his report addressing future dangerousness (Appendix Exhibit 7) was appended to
Russell’s state habeas application. While the discussion in the writ application itself
was short, incorporation of Dr. Cunningham’s study put a large amount of
information before the habeas court.
Dr. Cunningham is not the only expert qualified to compile studies and apply
them to the question of future dangerousness in a particular case, but his work is
representative of what experts in the field could research before trial and then present
in court. In his report for habeas counsel, Dr. Cunningham was not just expressing his
own opinion, although his opinions are well-researched and well-reasoned. He found
and provided plentiful empirical evidence. For example, early in the report’s
discussion of future dangerousness predictions was a summary of research sponsored
by the United States Department of Justice:

22

[P]rison violence does not predictably follow from pre-confinement
violence or the capital offense of conviction. To illustrate, summaries
of research sponsored by the U.S. Justice Department (Alexander &
Austin, 1992; National Institute of Corrections, 1992) have concluded:
1.

Past community violence is not strongly or consistently associated
with prison violence;

2.

Current offense, prior convictions, and escape history are only
weakly associated with prison misconduct;

3.

Severity of offense is not a good predictor of prison adjustment.

(ROA.5050-5051). That was a strong start for Dr. Cunningham’s report, but it was
only the overture for the opera. More will be said about the thoroughness of
Cunningham’s report in Part C below.
In Barefoot v. Estelle, 463 U.S. 880 (1983) this Court examined the use of
scientific evidence, in the form of expert testimony, in the context of the future
dangerousness issue. Barefoot provided insights which are as valid for defense
expert witnesses as for prosecution expert witnesses. This Court wrote:
The suggestion that no psychiatrist’s testimony may be presented with
respect to a defendant’s future dangerousness is somewhat like asking
us to disinvent the wheel. In the first place, it is contrary to our cases.
If the likelihood of a defendant’s committing further crimes is a
constitutionally acceptable criterion for imposing the death penalty,
which it is, Jurek v. Texas, 428 U.S. 262 (1976), and if it is not
impossible for even a lay person sensibly to arrive at that conclusion, it
makes little sense, if any, to submit that psychiatrists, out of the entire
universe of persons who might have an opinion on the issue, would
know so little about the subject that they should not be permitted to
testify.
23

Barefoot, supra at 897. While Barefoot dealt directly with testimony by a psychiatrist,
this Court’s comment would be equally applicable to a Ph.D psychologist. In fact,
Dr. Cunningham himself has appeared in a considerable number of reported appellate
cases.
Barefoot also recognized that an expert serves a function which is not
redundant with the testimony of lay witnesses addressing factual events in a
defendant’s life. Barefoot drew an analogy to psychiatric commitments which may
hinge on dangerousness and quoted from Addington v. Texas, 441 U.S. 418, 429
(1979):
There may be factual issues in a commitment proceeding, but the factual
aspects represent only the beginning of the inquiry. Whether the
individual is mentally ill and dangerous to either himself or others and
is in need of confined therapy turns on the meaning of the facts which
must be interpreted by expert psychiatrists and psychologists (emphasis
in Barefoot).
Stated another way, life events (shown through lay witnesses or records) may provide
the “dots,” but expert insights and scientific studies help a jury “connect the dots.”
C. The Ineffective Assistance of Counsel
on the Future Dangerousness Issue
The main framework for analyzing effectiveness of counsel is the two-part test
of Strickland v. Washington, 46 U.S. 668 (1984). Russell first had to show that trial
counsel’s performance was of such a poor quality as to fall “below professional

24

norms,” measured objectively. Second, Russell had to establish “prejudice.” What
constitutes prejudice will depend on the phase of trial at issue. Williams v. Taylor,
529 U.S. 362 (2000), following the lead of Strickland v. Washington for punishment
issues, concluding that only a “reasonable probability” of a different result is needed
to justify habeas relief. A “reasonable probability” means one “sufficient to
undermine confidence in the outcome.” Williams, supra.
(1) First Prong of Strickland
Making strategy choices are part of legal representation and that a strategic
mistake does not automatically show a violation of the Sixth Amendment. On the
other hand, it cannot fairly be said that “anything goes” with respect to strategy. Even
before Strickland, the Court of Criminal Appeals put assertions of “strategy” in the
proper perspective:
A criminal defense lawyer must have a firm command of the facts of the
case as well as governing law before he can render reasonably effective
assistance to his client – in or out of the courtroom.
Ex parte Duffy, 607 S.W.2d 507, 516 (Tex. Crim. App. 1980). Russell’s trial counsel
had over twenty years to read Duffy and learn from it. Duffy drew upon this Court’s
landmark case in Powell v. Alabama, 287 U.S. 45 (1932).
Closer to Russell’s 2003 trial, this Court improved on Duffy by stressing that
effective representation includes effective preparatory work prior to trial. Williams

25

v. Taylor, supra held that trial counsel failed to provide effective representation
because counsel had not thoroughly investigated potentially mitigating factors in
Williams’ life history. By the time Russell was indicted, a Texas attorney involved
in a Capital Murder case should have read Williams and pondered how broadly it
could apply. Wiggins v. Smith, 539 U.S. 510 (2003) explained that preparatory
investigation should continue until the point was reached where counsel reasonably
could conclude that no further investigation would be useful. Wiggins specifically
said that rule applied to choosing a punishment-stage defense. This view in Wiggins
provided a “rule of thumb” which counsel could use to evaluate the adequacy of
investigation as it progressed. It is true that Wiggins was decided after Russell’s
trial, but it was not “new” law and was decided before Russell’s conviction became
final.
The correct observation in Ex parte Duffy, supra that counsel must have a “firm
command” of the applicable law, and not just the facts, is the logical companion of
Williams and Wiggins. Counsel’s actions should be measured against what facts must
be proved or challenged, but it is the law applicable to the particular case which
dictates what those facts will be.
The state habeas application sheds some light on the pretrial efforts to develop
evidence. Defense counsel did employ a criminal investigator, John Castillo, and a

26

mitigation specialist, Gina Vitale, but neither one is a Ph.D. psychologist. There is
no indication that either Castillo or Vitale, or any expert found or recommended by
them, was asked to work up a presentation on future dangerousness.
A psychiatrist, Edward Friedman, M.D., did examine Russell, but he was not
asked to work up a science-based defense strategy on the future dangerousness issue
or testify about it. Why not? Probably because the defense attorneys were
predisposed against using a science-based defense on this issue. That was revealed
in a pretrial motion which tried to use arguments against expert testimony as a reason
to strike down the death penalty. The motion stated in part:
The ability to accurately predict whether or not a person would commit
criminal acts of violence is not within the ability of the lay people on the
jury. The probability that a person will commit future violence is not a
prediction that even the psychiatric community can make particularly in
the long run. The unreliability of psychiatric predictions of long-term
future dangerousness is by now an established fact within the
profession. American Psychiatric Association Task Force on Clinical
Aspects of the Violent Individual Clinical Aspects of the Violent
Individual 1974 and Amicus Brief of the American Psychiatric
Association APA in Barefoot v. Estelle 1983. The APA in its brief said
that the primary finding of the task force was that judgments concerning
the long-run potential for future violence and the dangerousness of a
given individual are fundamentally of very low reliability adding that
the state of the art regarding predictions of violence is very
unsatisfactory.
(ROA.1037-1041). Incredibly, Russell’s attorneys were relying on an amicus brief
submitted in Barefoot, but ignoring this Court’s holding in Barefoot. Defense

27

counsel’s understanding of governing law was almost twenty years “behind the
curve” and was hardly a “firm command” of applicable law. Russell’s attorneys
believed in this fundamental misconception enough to file the motion and argue it
before the trial court.
The federal district judge’s analysis was guided in part by the state habeas
judge’s finding, based on a “credible affidavit of trial counsel Hayes,” that the
driving force in the strategy regarding future dangerousness was a belief that
“specific evidence of [Russell’s] life and background presented to the jury would be
more effective than studies of convicted murderers” (Appendix Exhibit 2, p. 43). The
state habeas judge was not the judge who had presided at trial and would not have
known that defense counsel had already filed a pretrial motion which showed that
counsel’s real thinking at the time of trial was very different, being a categorical
attack on the reliability of the scientific evidence rather than a weighing of the
relative benefits of lay witnesses and experts. In fact, once counsel had taken the
strong position against experts in the motion, counsel could not even credibly ask for
funding of an expert like Cunningham after generally denouncing such experts. Once
it is recognized that Hayes’ affidavit did not reveal the innate bias against experts
expressed prior to trial, the state habeas finding should be considered an unreasonable
one. Certainly it did not reflect the approach which this Court specified in Wiggins.

28

The state habeas judge certainly should have been aware of Williams and
Wiggins, which had long been decided by the time the state habeas judge signed the
proposed findings. The question under Wiggins must be: How could trial counsel
fairly compare the two evidentiary approaches, choosing lay witnesses over experts,
without investigating what an expert actually could say and what scientific research
an expert could present? There is no indication that defense counsel investigated the
topic until a point was reached where further investigation would be unnecessary, as
this Court’s case law demands. Instead defense counsel seems to have relied on a
preconceived bias.
A courtroom is like a farmer’s market, in that the quality and quantity of the
work done beforehand is evident from the apparent yield. What could the yield have
been if trial counsel had researched the topic of future dangerousness, or had obtained
the assistance of someone like Dr. Cunningham to do so? The extent of what was
missed by trial counsel can be gleaned from Cunningham’s preliminary topic
headings:
Failure of the defense to accurately characterize Special Issue No. 1;
Failure of the defense to detail and contextualize Russell’s conduct
during his prior incarceration in TDCJ;
Failure of the defense to describe the low predictive utility of past

29

community violence or the capital offense for risk of violence in prison;
Failure of the defense to individualize Russell’s risk of violence in
prison in light of the low rates of serious violence in TDCJ;
Failure of the defense to individualize Russell’s risk from group
statistical data on capital offenders;
Failure of the defense to individualize Russell’s violence risk from rates
of violence among convicted murderers in TDCJ ;
Failure of the defense to individualize Russell’s risk of committing
serious violence in prison in light of preventive interventions available
in TDCJ; and
Failure of defense counsel to equip the jury to avoid predictable error.
(ROA.5048-5061). These topic headings are not self-explanatory, but for each of
those topics, Dr. Cunningham provided scholarly research to back up his position.
There was so much research material that the jurors probably could not have waded
through it by themselves. An expert witness, however, can explain why particular
scientific information is important and guide the jury through it.
With no evidence of the kind of insights made by Dr. Cunningham having been
presented to the jury, the defense argument on the future dangerousness issue did not
even assert, let alone show, that there was a factual basis, rooted in science, for

30

reasonable doubt. The attorneys divided the two special issues between them for
argument, and attorney Freed was supposed to cover the future dangerousness issue.
Freed’s argument, in its entirety), is presented in Appendix Exhibit 8. Less than two
pages of the argument discussed future dangerousness, and Freed then switched to
discussing mitigation and making a general plea for mercy. There was not a syllable
about science concerning future dangerousness in the whole argument.
The one state habeas finding which addressed the value of scientific evidence,
as opposed to a claimed preference by counsel, asserted that the scientific evidence
would not be relevant (Appendix Exhibit 4, Finding 54). This finding is really is a
conclusion of law, i.e. a statement of a legal reason why some fact should not be
considered and therefore does not support relief. Issues of law are reviewable de
novo, albeit under the tough standard of Section 2254(d). There are several flaws in
this finding.
The“finding” is legally incorrect. TEX. R. EVID. 401 defines “relevant
evidence” as “evidence having any tendency to make the existence of any fact that is
of consequence to the determination of the action more probable or less probable than
it would be without the evidence.” Expert testimony explaining what is in Dr.
Cunningham’s report would have had some tendency to make a “fact of
consequence,” i.e. the probability of future dangerousness, be seen by jurors as less

31

likely. A state evidence rule is not the equivalent of federal constitutional law, but an
error in state law should have been corrected either in the habeas court or in the Court
of Criminal Appeals. The lack of that correction shows diminished reliability, not
heightened reliability, in the state handling of Russell’s case, contrary to what the
Eighth Amendment requires. Woodson, supra.
The finding of a lack of relevance also cannot be squared with Barefoot.
Drawing upon Addington, this Court stated that a future dangerousness decision “
turns on the meaning of the facts which must be interpreted by expert psychiatrists
and psychologists.” When an existing opinion of this Court has said that a
dangerousness decision “turns on” what an expert may say, the state court’s
conclusion was an unreasonable application of this Court’s case law, arguably even
in outright conflict with what this Court said in Barefoot.
If more clarity was needed in the state habeas case (and it was), the judge could
have ordered an evidentiary hearing – a real hearing, with witnesses under oath,
answering questions on direct examination and cross-examination. That was not
done. Looking at the way the punishment stage played out, this Court cannot be
confident that there was any investigation of possible scientific evidence for use on
the future dangerousness issue. Russell also requested that the United States District
Court conduct a hearing. The federal judge originally left the idea open in order to

32

evaluate it with the benefit of the respondent’s pleadings, but ultimately the federal
judge issued the memorandum and order without conducting a hearing.
Russell has done what he can, without the benefit of an evidentiary hearing, to
show that there was either poor preparation to defend on the future dangerousness
issue, and quite likely, no such preparation at all. Either way, the record indicates
substandard work by counsel.
(2) Second Prong of Strickland
Applying the standard from the second prong of Strickland, the dearth of
scientific evidence and expert opinion as to future dangerous was prejudicial. A
reviewing court cannot have confidence that the outcome, i.e. the verdict on the
special issue, would have been the same affirmative answer, with or without the
potential evidence. The respondent argued in the Court of Appeals that the damage
must be “so ill chosen that it permeates the entire trial with obvious unfairness,”
citing Cotton v. Cockrell, 343 F.3d 746, 752–53 (5th Cir. 2003). That is not logical
when considering punishment-stage ineffectiveness, since part of the “entire” trial,
namely guilt determination, already is over before the jury turns to the future
dangerousness issue. If the question is whether counsel’s error “permeated” the
entire punishment determination, that definitely was true. Russell was deprived of
evidence which, by helping him prevail on the first issue, also would have shut down

33

determination of the second issue.
As shown earlier in the graph showing how the applicable law would work,
there was everything to gain, and nothing to lose, with a vigorous scientific defense
on future dangerousness. For counsel to not even try to present such a defense is
inexplicable. Giving away the first issue was like Grant surrendering to Lee. That
constitutes prejudice.
Compounding the prejudice was the cavalier manner in which the state habeas
court made its finding. As amended in the Antiterrorism and Effective Death Penalty
Act (“AEDPA”), 28 U.S.C. §2254(d)(1) limits the legal bases for relief which may
be granted by a federal court. The state habeas court’s decision must be contrary to,
or an unreasonable application of, clearly established Federal law, as determined by
this Court. By the terms of the statute, that limitation applies to a “decision.” What
is a “decision” in this context? It is not just the ultimate state court order granting or
denying relief, but rather must mean a conclusion made by the state habeas court as
to a particular claim. If a state habeas court does not address a particular claim, then
there has not a decision on the claim.
Russell presented two claims which were similar but distinct: ineffectiveness
of counsel as to mitigation, and also ineffective of counsel on future dangerousness.
The issues were distinctly identified in the outline structure of the state application,

34

with the future dangerousness claim being in Subpart D of the application (Appendix
Exhibit 6). The state habeas findings, however, did not follow that outline. Instead
the two different ineffective assistance issues were thrown into one discussion.
Basic fairness in litigation calls for the judiciary to address a claim as it
actually is made, not as it might be recast by an adversary (here, the prosecutor as
draftsman) so that it is conveniently lost in tall weeds. This is not just a matter of
policy or opinion. This Court has long held that due process of law, under U.S.
CONST. amend. XIV, §1, requires a fair opportunity to be heard. Bell v. Burson, 402
U.S. 535 (1971); Stanley v. Illinois, 405 U.S. 645 (1972) . Stanley applied that
principle to denial of a hearing on a driver’s license. Is not a fair hearing even more
necessary on habeas review, when a life, not a license, is at stake?.
D. Failure to Apply Correct COA Standard
That brings the discussion back to the only problem this Court needs to address
at this time, which is the Circuit panel’s use of the wrong approach at the stage of
deciding whether a COA should be granted. This Court held in Miller-El v. Cockrell,
37 U.S. 322 (2003) and Slack v. McDaniel, 529 U.S. 473 (2000), that a COA should
be granted if either of two conditions were met: (1) reasonable jurists could disagree
whether the petition should have been resolved in a different manner; or (2) the issues
which were presented deserved encouragement to proceed further. Neither of those

35

alternatives presents a high hurdle, and both of them called for granting of a COA in
Russell’s case.
Reasonable jurists could agree with Russell that the extent of investigation and
preparation required by this Court’s case law was not achieved, making counsel’s
strategy choices inadequately grounded. Reasonable jurists could agree with Russell
as to why Dr. Cunningham’s evidence was relevant and that the state habeas court
was incorrect on that matter. Some could disagree with Russell, but reasonable
disagreement means a COA should be granted, not denied.
“Proceeding further” obviously embraces the step of moving to full briefing
and possible oral argument in the Court of Appeals. As part of that, weaker issues in
a COA application, such as those perceived to have problems of procedural default,
will be weeded out. That benefits both sides and benefits the reviewing court, as
more of counsel’s time and effort, and more of a court’s time and effort, can be
focused on a strong issue. Russell’s counsel readily admits that the briefing on this
issue at the time of seeking a COA was limited by competition from other issues, all
of the issues being subject to a word limit, an inevitable limit on time, and hard
choices as to how to resolve the competition among issues. In contrast, with the grant
of a COA on a particular issue, much better analysis is possible. That, too, improves
the reliability in death-penalty cases.

36

“Proceeding further”also includes review by this Court. Because of the
hierarchy of the judicial branch of government, this Court reviews what other courts
have examined before. A thorough analysis in lower courts helps this Court examine
an issue. The more minds which study a life-or-death issue, the better.
Enforcement of a proper approach to COA review is not, however, just a matter
of policy. Buck v. Davis, __ U.S. __, 137 S.Ct, 759, 197 L.Ed.2d 1 (2017), citing
Miller-El v. Cockrell, pointed out that “[u]ntil the prisoner secures a COA, the Court
of Appeals may not rule on the merits of his case. “ This Court explained:
The COA inquiry, we have emphasized, is not coextensive with a merits
analysis. At the COA stage, the only question is whether the applicant
has shown that “jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed
further.” [Citation to Miller-El, at 327.] The threshold question should
be decided without “full consideration of the factual or legal bases
adduced in support of the claims.” Id., at 336.
In this cause, too, the Circuit panel in this issue was really deciding the issue on the
merits. The Circuit panel put in a good effort. but in doing so it ventured into “full
consideration” of the issue, contrary to Buck.
Buck reiterated the observation in Miller-El that “[w]hen a court of appeals
sidesteps [the COA] process by first deciding the merits of an appeal, and then
justifying its denial of a COA based on its adjudication of the actual merits, it is in
essence deciding an appeal without jurisdiction.” Id., at 336-337. That also is what
37

happened in Russell’s case. In contrast, Russell thinks the Circuit panel did have
jurisdiction to go as far as remanding to the federal district court simply to order an
evidentiary hearing, since a merits decision should be based on as much information
as can be obtained. Just where the “jurisdictional” line of demarcation falls for COA
proceedings is a topic which can be clarified by this Court, and the whole federal
judiciary would benefit from the guidance.
In Buck this Court engaged in an extensive analysis of the underlying issue, and
it is up to this Court whether to do the same in Russell’s case. There are some meaty
underlying questions here, such as what constitutes relevant evidence of future
dangerousness, and whether or not incorporation of expert testimony of future
dangerousness must be based on the level of investigation dictated by Wiggins for
mitigation. It would be worth this Court’s time to examine those issues. On the other
hand, this Court could take a more limited approach and simply hold that, as the
Court said in Buck, the Circuit panel “leapfrogged” over the limited inquiries that
should guide a COA determination. If this Court chooses the latter, Russell will make
a presentation to the Circuit panel with striking similarity to this petition. The
difference is that Russell would have over thirty pages in which to do it, rather than
the meager space available when briefing had to cover many issues.
The Circuit panel undertook quite a bit of work, as did Russell’s counsel and

38

the respondent’s counsel. All of those efforts had to be spread out over multiple
issues. The sufficiency issue raised by Russell, by itself, consumed much of the
word limitation allowed to counsel, and a large share of the Circuit panel’s attention.
A major benefit of the correct use of the COA process is the narrowing of issues,
allowing better presentation by counsel and closer examination by the reviewing
court, than is possible when all concerned must “cover the waterfront.”
This Court should hold that the Circuit panel committed the same error as in
Buck. Where the path leads from there can be decided after this Court addresses the
error.

39

CONCLUSION
For the foregoing reasons, Russell requests that this Court issue a writ of
certiorari to the Fifth Circuit Court of Appeals.
Respectfully submitted,

____________________________________
Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

40

